TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Foreign Account Tax Compliance Act:
                   Improvements Are Needed to Strengthen
                    Systems Development Controls for the
                   Foreign Financial Institution Registration
                                   System



                                      September 27, 2013

                              Reference Number: 2013-20-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


FOREIGN ACCOUNT TAX COMPLIANCE                      WHAT TIGTA FOUND
ACT: IMPROVEMENTS ARE NEEDED TO
                                                    The IRS is developing the Foreign Financial
STRENGTHEN SYSTEMS                                  Institution Registration System within its new
DEVELOPMENT CONTROLS FOR THE                        Enterprise Life Cycle Iterative Path systems
FOREIGN FINANCIAL INSTITUTION                       development and testing process. The initial
REGISTRATION SYSTEM                                 system release was substantially developed and
                                                    nearing deployment when the IRS terminated

Highlights
                                                    the effort in November 2012. Following new
                                                    Department of the Treasury regulations,
                                                    changes with Intergovernmental Agreements,
Final Report issued on                              and new processes needed to implement the
September 27, 2013                                  FATCA, the IRS was unable to fully utilize the
                                                    initial system. Subsequently, the IRS modified
Highlights of Reference Number: 2013-20-118         and expanded the scope of the system
to the Internal Revenue Service Chief               requirements. The major redesign and initiation
Technology Officer and the Commissioner,            of a new development effort was necessary
Large Business and International Division.          because the IRS did not sufficiently develop
                                                    requirements for the initial Foreign Financial
IMPACT ON TAXPAYERS                                 Institution Registration System as needed for
                                                    new system development.
The development of the Foreign Financial
Institution Registration System allows the IRS to   While the IRS has taken steps to improve
support requirements of the Foreign Account         management controls for this major information
Tax Compliance Act (FATCA) legislation. The         technology investment, additional improvements
expected benefits of this information technology    are needed to ensure consistent adherence to
project include the ability to: 1) effectively      risk mitigation processes for program
register Foreign Financial Institutions;            management, security control processes, testing
2) increase annual enforcement revenue; and         documentation, and requirements management.
3) support the IRS’s new overall information
reporting system for the FATCA. The successful      WHAT TIGTA RECOMMENDED
development, deployment, and implementation         TIGTA recommended that the Chief Technology
of the Foreign Financial Institution Registration   Officer and the Commissioner, Large Business
System should significantly improve taxpayer        and International Division, timely identify and
compliance internationally and enhance IRS tax      communicate system changes for future FATCA
administration.                                     releases and ensure that the IRS consistently
WHY TIGTA DID THE AUDIT                             documents and maintains test cases and
                                                    test results. In addition, the Chief Technology
The overall objective of this review was to         Officer should ensure that adequate program
determine whether the IRS’s systems                 management controls are in place and
development approach for the Foreign Financial      consistently followed to allow the IRS to
Institution Registration System is sufficiently     accomplish its FATCA goals and objectives.
mitigating risks with the application of            Finally, the Chief Technology Officer should
information technology management controls for      ensure that all system requirements
successful development and delivery of              documentation includes the requirements being
requirements and capabilities aimed at FATCA        tested and all security requirements, and that
milestones and goals. Specifically, TIGTA           corresponding test cases are identified and
evaluated the IRS’s key management controls         sufficiently traced, managed, and tested.
and processes over program management,
security control processes, testing                 The IRS agreed with all six recommendations.
documentation, requirements management, and         However, TIGTA believes that the action plans
fraud detection controls.                           provided by the IRS for two of the
                                                    recommendations were not fully responsive.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 27, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Foreign Account Tax Compliance Act:
                             Improvements Are Needed to Strengthen Systems Development
                             Controls for the Foreign Financial Institution Registration System
                             (Audit # 201320015)

 This report presents the results of our review of the Foreign Financial Institution Registration
 System (FRS). The overall objective of this review was to determine whether the Internal
 Revenue Service’s (IRS) systems development approach for the FRS is sufficiently mitigating
 risks with the application of information technology management controls for successful
 development and delivery of requirements and capabilities aimed at Foreign Account Tax
 Compliance Act milestones and goals. This audit is included in the Treasury Inspector General
 for Tax Administration Fiscal Year 2013 Annual Audit Plan and addresses several major
 management and performance challenges confronting the IRS including: Implementing the
 Affordable Care Act and Other Tax Law Changes; Globalization; and Security for Taxpayer
 Data and Employees.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                         Foreign Account Tax Compliance Act: Improvements Are
                        Needed to Strengthen Systems Development Controls for the
                             Foreign Financial Institution Registration System




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Program Management Controls Were Not Consistently
          Followed During the Development of the First Release
          of the Foreign Financial Institution Registration System ............................. Page 4
                    Recommendation 1:........................................................ Page 8

                    Recommendation 2:........................................................ Page 9

          Security Controls Need Improvement to Ensure
          Long-Term Success of the Foreign Financial Institution
          Registration System ...................................................................................... Page 10
                    Recommendation 3:........................................................ Page 10

          Testing Documentation Procedures Need Improvement .............................. Page 11
                    Recommendations 4 and 5: .............................................. Page 12

          Requirements Management Controls Need Improvement ............................ Page 13
                    Recommendation 6:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measure ................................................................ Page 19
          Appendix V – Glossary of Terms ................................................................. Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
         Foreign Account Tax Compliance Act: Improvements Are
        Needed to Strengthen Systems Development Controls for the
             Foreign Financial Institution Registration System




                       Abbreviations

FATCA           Foreign Account Tax Compliance Act
FI              Financial Institution
FFI             Foreign Financial Institution
FRS             Foreign Financial Institution Registration System
IGA             Intergovernmental Agreement
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
IT              Information Technology
LB&I            Large Business and International
PMO             Program Management Office
RTVM            Requirements Traceability Verification Matrix
SAT             System Acceptability Testing
SCA             Security Controls Assessment
                     Foreign Account Tax Compliance Act: Improvements Are
                    Needed to Strengthen Systems Development Controls for the
                         Foreign Financial Institution Registration System




                                            Background

The Foreign Account Tax Compliance Act (FATCA) is an important development in the efforts
to improve U.S. tax compliance involving foreign financial assets and offshore accounts. The
FATCA legislation was enacted in 2010 as part of the Hiring Incentives to Restore Employment
Act.1 Changes required by the FATCA will: 1) combat tax evasion by U.S. persons holding
investments in offshore accounts; 2) expand the Internal Revenue Service’s (IRS) global
presence; 3) pursue international tax and financial crimes; 4) fill a gap in the IRS’s information
reporting system; and 5) generate additional enforcement revenue. The Department of the
Treasury issued the final FATCA regulations on January 28, 2013.
The FATCA legislation directly impacts three key groups: 1) taxpayers who meet the reporting
requirements threshold for foreign financial assets; 2) Foreign Financial Institutions (FFI) that
report to the IRS foreign financial account information exceeding certain thresholds held by U.S.
taxpayers; and 3) withholding agents2 who withhold a 30 percent tax on taxpayers who fail to
properly report their specified financial assets related to U.S. investments.
Prior to the FATCA legislation, the IRS did not have an international system to detect tax
evasion by U.S. persons holding investments in FFIs,
including foreign financial assets or offshore accounts. The Prior to the FATCA legislation,
IRS is developing a new international system called the FFI       the IRS did not have an
Registration System (FRS) to support the requirements of          international system to
the FATCA legislation. The FFIs will register and then          detect offshore tax evasion.
provide offshore account information that is reported
through the FRS. The new system is a major information
technology investment3 for the IRS. The FRS is the first of the FATCA systems development
projects planned through Fiscal Year 2017. The first release includes requirements for Drop 1
and Drop 2.4 FRS users include registered officers of the FFIs and IRS employees. Figure 1
presents a timeline for key FATCA legislative and FRS development activities.




1
  Pub. L. No. 111-147, 124 Stat. 71 (2010).
2
  See Appendix V for a glossary of terms.
3
  Internal Revenue Manual 2.16.1.3.4.2, (April 25, 2012) defines a major information technology investment as
having an annual cost of more than $5 million per year and a total life cycle cost of greater than $50 million.
4
  Drop 1 is the FRS functionality for FFI user requirements for Release 1.1. The FRS Drop 1 was originally
scheduled to deploy on July 1, 2013. Drop 2 is the FRS functionality for IRS user requirements for Release 1.1.


                                                                                                           Page 1
                        Foreign Account Tax Compliance Act: Improvements Are
                       Needed to Strengthen Systems Development Controls for the
                            Foreign Financial Institution Registration System



         Figure 1: Timeline - FATCA Legislative and FRS Development Activities
           FATCA Legislative/FRS Development Activity                                  Date
        FATCA Legislation Enacted                                          March 18, 2010
        FRS Project Started System Development                             April 25, 2011
        FATCA Project Kickoff Meeting                                      July 19, 2011
        FRS Release 1.0 Milestones 1/2 Exit                                September 15, 2011
        FRS Release 1.0 Milestones 3/4a/4b Start                           September 16, 2011
        Proposed FATCA Regulations Issued                                  February 8, 2012
        FATCA Governance Board Approved Creation of                        September 13, 2012
        Information Technology (IT) FRS Project
        Management Office
        Intergovernmental Agreement (IGA) Scope Changes                    November 2, 2012
        Identified
        FRS Release 1.0 Terminated5                                        November 5, 2012
        FRS Release 1.1 Redesigned                                         January 7, 2013
        Final FATCA Regulations Issued                                     January 28, 2013
        FATCA Governance Board Approved Scope and                          January 31, 2013
        Schedule Changes to Develop Release 1.1
        FRS Release 1.1 Drop 1 Scheduled Deployment6                       July 14, 2013
        FATCA IT Program Management Office (PMO)                           August 2013
        Stand-up
        FRS Release 1.1 Drop 2 Scheduled                                   November 2013
        FFIs Deadline to Register on the FRS                               April 25, 2014
        IRS Publishes First Participating FFI List                         June 2, 2014
        Withholding Begins on All U.S. Payments                            July 1, 2014
        Source: Treasury Inspector General for Tax Administration analysis, dated August 7, 2013.

The objective of our audit was to determine whether the IRS’s systems development approach
for the FRS is sufficiently mitigating risks with the application of information technology



5
    FRS Release 1.1 thereafter leveraged the work performed in and associated with deliverables from Release 1.0.
6
    IRS furlough days and testing delays pushed the Drop 1 deployment back two weeks.


                                                                                                             Page 2
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System



management controls for successful development and delivery of requirements and capabilities
aimed at FATCA milestones and goals.
This review was performed at the Large Business and International (LB&I) Division offices in
Washington, D.C., and the IT Organization offices at the New Carrollton Federal Building in
Lanham, Maryland, during the period January through July 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System




                                Results of Review

Program Management Controls Were Not Consistently Followed
During the Development of the First Release of the Foreign Financial
Institution Registration System
The IRS is developing the FRS within its new Enterprise Life Cycle Iterative Path systems
development and testing process. The initial system release was substantially developed and
nearing deployment when the IRS terminated the effort in November 2012. Following new
Department of the Treasury regulations, changes with IGAs, and new processes needed to
implement the FATCA, the IRS was unable to fully utilize the initial system. Subsequently, the
IRS modified and expanded the scope of the system requirements. The major redesign and
initiation of a new development effort was necessary because the IRS did not sufficiently
develop requirements for the initial FRS as needed for new system development. While the IRS
has taken steps to improve management controls for this major information technology
investment, additional improvements are needed to ensure consistent adherence to risk mitigation
processes for program management, security control processes, testing documentation, and
requirements management.

The first release of the FRS was substantially developed and nearing deployment
The FRS is needed to register FFIs to assist in achieving the primary objective of the FATCA
legislation, which is the disclosure of U.S. taxpayer foreign accounts. By November 2012, the
IRS had made a significant investment in developing Release 1.0 of the FRS and was one month
away from deployment of a major software release.
The FFI registration process is electronic through the FRS; however, online registration is not
mandatory and a paper process is currently available. The IRS informed us that after the planned
initial 12-month registration period, FFI registration will be an ongoing function. The IRS also
estimated that 200,000 to 400,000 FFIs, expected to be foreign entities, will register through the
FRS. Once FFIs are registered, they will be asked to provide identifying information for certain
U.S. accounts maintained by the institution such as account number, balance, gross receipts, and
withdrawals. Figure 2 highlights examples of key capabilities and features developed for FRS
Release 1.0.




                                                                                           Page 4
                        Foreign Account Tax Compliance Act: Improvements Are
                       Needed to Strengthen Systems Development Controls for the
                            Foreign Financial Institution Registration System



          Figure 2: Examples of Key Capabilities and Features of FRS Release 1.0
                       Capabilities                                                  Features
    The FRS is a modern web-based application with            The FRS provides flexibility for FIs to report on
    24/7 accessibility. Specifically, it:                     and manage information throughout their
     Allows Financial Institution (FI) users to              corporate structure (branch and members).
      establish an online account, including the              Specifically, the system:
      ability to choose a password and create                  Generates automatic notifications when an FI
      challenge questions.                                      status changes.
     Displays a customized home page for FIs to               Implements a universal numbering system
      manage their accounts.                                    (Global Intermediary Identification Number)
     Ensures security for all data provided on                 that can be used by local taxing authorities.
      behalf of FIs.                                           Allows FIs to appoint delegates (points of
     Provides FIs with tools to oversee member                 contact) to perform registration tasks.
      and/or branch information.
     Establishes a streamlined environment for FIs
      to register in one place.
Source: FRS overview presented by the IRS to the Treasury Inspector General for Tax Administration on February 21, 2013.

The FRS project team has followed the IRS Enterprise Life Cycle Iterative Path provisions for
systems development projects.7 For example, planned project scope and activities were detailed
in a Project Management Plan and a Work Breakdown Structure, and regular oversight of project
progress was accomplished during monthly Information Technology Project Control Reviews.
In addition, the Project Management Plan identified dependencies for the development of the
FRS.

Release 1.0 was approaching the scheduled deployment date when the IRS
terminated it
In November 2012, approximately one month before the initial FRS was scheduled to be
deployed, IRS executives terminated Release 1.0. The IRS provided the following reasons for
termination of Release 1.0 and the redesign of the FRS:
          The FATCA regulations took more than 11 months to be finalized. During this time, the
           IRS was developing Release 1.0 of the FRS. After the final regulations were issued in
           January 2013, the IRS identified requirements in the regulations that were not part of the
           design of Release 1.0.
          Department of the Treasury negotiations on IGAs with different countries identified
           changes for the FFIs responsibilities in the registration process.


7
    The Enterprise Life Cycle Iterative Path received IRS executive approval on September 12, 2011.


                                                                                                                   Page 5
                      Foreign Account Tax Compliance Act: Improvements Are
                     Needed to Strengthen Systems Development Controls for the
                          Foreign Financial Institution Registration System



        The Release 1.0 requirements did not meet the complexities of these registration changes;
         therefore, the IRS decided to terminate Release 1.0. In order to incorporate the
         requirements from the regulations and the IGA changes, the IRS began developing
         Release 1.1.
        As FATCA processes were developed, the IRS determined the need to create a unique
         identifier for the FFIs that successfully register. This unique identifier must be present on
         the IRS Participating FFI list to inform withholding agents of an FFI’s FATCA status and
         to track an FFI’s U.S. account reporting.
The IRS also informed us that FRS scope changes were necessary due to the following changes
in the IGAs:
        IGA negotiations with foreign countries resulted in the proposal of an alternative
         framework for implementing the FATCA.
        Two Reporting Models were decided upon: Model 18 and Model 2.9
        Reciprocal10 and Non-Reciprocal Versions of Model 1 were decided upon. In the case of
         a reciprocal Model 1 IGA, the IRS agrees to provide the country with reciprocal
         information on foreign citizens from their jurisdictions who have U.S. accounts.
        Competent Authority Agreements11 would be entered into to further implement the IGAs.
To address the issues encountered while developing Release 1.0, FATCA management plans to
establish a new IT Organization PMO in Applications Development within the Fiscal Year 2013
time frame. Going forward with the FRS, it is important that the IRS address and build on the
following critical lessons learned12 from Release 1.0, including:
        Defining the requirements in their entirety with as much detail as possible and as early as
         possible is crucial to meet the scheduled drop date.



8
  Model 1: The Treaty Partner country agrees to provide the IRS with FATCA-specific data on U.S. accounts in its
country via the exchange of information. FFIs in the Treaty Partner country report to the Tax Authority, not directly
to the IRS.
9
  Model 2: FFIs in the Treaty Partner country report U.S. taxpayer account information directly to the IRS, rather
than going through their Tax Authority; certain additional information, such as details on recalcitrant account
holders, will be reported through the Tax Authority.
10
   The reciprocal version of the IGA provides for the United States to exchange information currently collected on
accounts held in U.S. financial institutions by residents of partner countries, and includes a policy commitment to
pursue regulations and support legislation that would provide for equivalent levels of exchange by the United States.
11
   A Competent Authority Agreement is an agreement between persons or organizations (e.g., foreign countries) that
have the legally delegated or invested authority, capacity, or power to perform designated functions.
12
   The IRS provided a list of 15 lessons learned from the termination of Release 1.0.


                                                                                                             Page 6
                   Foreign Account Tax Compliance Act: Improvements Are
                  Needed to Strengthen Systems Development Controls for the
                       Foreign Financial Institution Registration System



      Working with the System Acceptability Testing (SAT) and Security Controls Assessment
       (SCA) teams to identify their needs and address them in advance.
      Working on the requirements and baselining them as early as possible in order to speed
       up the development process.
      Identifying much earlier the Business Objects Enterprise reports, requirements,
       calculation fields, and system deployment reports for the drop.
During our review, we determined program management control processes did not timely
identify and communicate system design changes to ensure the successful development of the
FRS. Beginning in April 2011, the FATCA PMO comprised of LB&I Division and IT
personnel, began development of FRS Release 1.0.
Major revisions of the FATCA business requirements began in late 2012 following delays with
finalization of the FATCA regulations and the IGA negotiations that occurred outside of IRS’s
control. These revisions were needed to expand and modify the FRS scope to address key policy
issues, and to modify, add, or delete existing system requirements. The IRS provided
documentation that, in September 2012, they became aware that the program scope was
expanding. During that time frame, the IRS also initiated the creation of a new IT Organization
PMO to help mitigate FATCA system development risks.
In November 2012, Release 1.0, originally scheduled for production in December 2012, was
terminated. In December 2012, the IRS began revisiting the work it completed prior to resuming
work to design FRS Release 1.1 (two drops) in January 2013, and integrating various portions of
the Enterprise Life Cycle artifacts from Release 1.0. The first system delivery (referred to as
Drop 1) of Release 1.1’s planned two drops was originally scheduled to deploy on July 1, 2013,
but was pushed back to July 29, 2013. On July 30, 2013, IRS management confirmed that
Drop 1 for Release 1.1 was deployed.
                                     The IRS spent $8.6 million and took 19 months to develop
                                     FRS Release 1.0 before the effort was terminated. The IRS
    The IRS spent $8.6 million
      and took 19 months to          informed us that it was able to include most of the
     develop FRS Release 1.0         functionality developed for Release 1.0 in Release 1.1. The
       that was terminated.          IRS originally planned to spend a total of $14.4 million to
                                     develop and deploy the FRS. However, the current cost
                                     estimate to deploy the system in Release 1.1 is $8.0 million.
This $8.0 million in addition to the $8.6 million already spent on Release 1.0 results in a
total cost of $16.6 million for the FRS. Based on current estimated costs for Release 1.1
($16.6 million) compared to the planned cost for Release 1.0 ($14.4 million), we identified the
potential inefficient use of resources to be $2.2 million. See Appendix IV for details on this
outcome.



                                                                                            Page 7
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System



Program management control processes were not consistently followed to
ensure the successful development of the FRS
During our review, we determined that program management controls were not consistently
followed to ensure the successful development of the FRS. Beginning with an initial FRS
Project Kickoff meeting in July 2011, LB&I Division worked with the IT Organization and led
the development efforts for the FRS.
To develop successful new information technology systems needed for the FATCA, the IRS
must plan, monitor, and control the work specified by the system life cycle. This should include
the adequate formation and management of information technology projects.
In September 2012, the FATCA Governance Board approved the creation of a FATCA IT
Organization PMO to execute, monitor, and control all FATCA information technology projects
through Fiscal Year 2017.
The IRS is taking steps to establish an IT Organization PMO to lead FATCA systems
development including the FRS Release 1.1 activities. The acting program director for the
current PMO does not yet have staff assigned for program management activities. Further, the
IT Organizations PMO for FATCA systems relied on resources provided by a separate
Applications Development organization. IRS officials informed us that initialization of the
planned IT Organization PMO has been delayed due to budget constraints. While the FRS is
currently the only FATCA Program project under development, other information technology
projects are planned for development through Fiscal Year 2017.
Inadequate controls over key system development risk areas, as subsequently discussed, puts the
system at risk of not functioning as intended once it is moved into production. Without effective
program management controls, the IRS lacks assurance that current and future FATCA projects
will be adequately managed to ensure long-term success. Strengthening the existing IT PMO for
the FATCA would better enable the IRS to maintain adequate systems development risk
mitigation controls including system requirements management, key test processes and
documentation, and information technology costs estimates and schedules.

Recommendations
Recommendation 1: The Chief Technology Officer and the Commissioner, LB&I Division,
should ensure that the FATCA Organization PMO and FATCA information technology
management timely identify and communicate system changes to minimize costs and reduce
waste for future information technology development projects.
       Management Response: The IRS agreed with this recommendation and stated that it
       will ensure that the LB&I Division and the IT PMO will continue to work very closely to
       ensure that they timely identify and communicate system changes to minimize costs and
       reduce waste for future information technology development projects. Also, in the

                                                                                          Page 8
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System



       written response, the Chief Technology Officer disagreed with our conclusion that a
       major redesign of the system was necessary due to the IRS not sufficiently developing
       requirements and, hence, the title of our audit report.
       Office of Audit Comment: In the IRS’s response to the draft report, the Chief
       Technology Officer takes exception with our conclusion that a major redesign of the
       system was necessary due to the IRS not sufficiently developing requirements. Our audit
       found, however, that major additional work was required in Release 1.1 because of the
       significant increase in the number of requirements from the time Release 1.0 was
       terminated through the completion of the Release 1.1 requirements development.
       The Chief Technology Officer also disagreed with our conclusion that adequate program
       controls improvements are necessary. During our audit closing discussion with IRS
       management, we discussed our concerns about specific management controls needed for
       major information technology investments. Specifically, we informed the IRS and we
       maintain that FATCA requirements should be considered in an Enterprise Architecture.
       Consideration to goals and milestones for the FATCA within the IRS’s Enterprise
       Architecture would better enable the LB&I Division and the IT Organization PMO to
       work more effectively and efficiently going forward to strengthen program management
       controls and guide major information technology planning and investments. Moreover,
       this important management control could better enable the IRS to avoid unnecessary
       costs and delays with IT development projects required for the FATCA.
       In its written comments, the IRS also informed us that the FRS Release 1.1 Drop 2
       deployment date is November 2013. We have made the necessary change to this date in
       our final report.
Recommendation 2: The Chief Technology Officer should ensure that adequate program
management controls are in place and are consistently followed to guide the future system
development activities needed for the FATCA and to better position the IRS to accomplish its
goals for improving the benefits of its FATCA goals and objectives.
       Management Response: The IRS agreed with this recommendation and the FATCA
       Program Management Plan will be approved by the FATCA Governance Board. The
       plan will ensure that adequate program management controls are in place and will guide
       future system development activities.




                                                                                        Page 9
                   Foreign Account Tax Compliance Act: Improvements Are
                  Needed to Strengthen Systems Development Controls for the
                       Foreign Financial Institution Registration System



Security Controls Need Improvement to Ensure Long-Term Success
of the Foreign Financial Institution Registration System

The SCA Security Test Plan was not completed
The IRS must ensure that the FRS operates with appropriate management review and that there
is adequate monitoring of system security controls. Specifically, the Security Assessment and
Authorization process involves completing the SCA Security Test Plan. However, the FRS plan
will not be available until mid-September 2013, when all SCA testing is completed for both
Drops 1 and 2 of Release 1.1. We observed the SCA testing held in July 2013 and believe that
the SCA testing results for Drop 1 should be in the plan before Drop 1 is deployed.
This process is an important risk mitigation control for ensuring that all test cases are traced to
specific security requirements. By not including the SCA testing results for Drop 1, the IRS may
be unable to adequately determine whether:
      The SCA Test Plan included adequate security controls prior to deployment of the FRS.
      The security controls aligned with the National Institute of Standards and Technology
       guidance, IRS requirements and testing manuals, and other applicable standards.
      The SCA Test Plan contained test cases that tested all the security requirements.
      The test cases were mapped to the security controls.

Failed security controls identified by SCA testing require corrective actions prior
to system implementation
During our fieldwork, we also observed that SCA testers did not have the documentation to
verify that testing of controls was completed from SA-10 developers’ configuration testing and
SA-11 developers’ security testing at the beginning of the SCA testing. The SA-10 and SA-11
documentation was eventually provided during the SCA testing period. While the SA-10 test
cases were passed, one SA-11 test case was failed.
Cybersecurity management needs to ensure that the SA-11 security control is adequately tested
according to established National Institute of Standards and Technology and IRM guidelines.
Without assurance that this control is in place, the FRS may not operate as intended.

Recommendation
Recommendation 3: The Chief Technology Officer should ensure that the SCA Test Plan
and Developer Security Test and Evaluation Plan are prepared so that all security requirements,
security controls, and test cases are identified, traced, and tested, and all security testing is
performed before deployment of Drop 1 to ensure that the FRS operates as intended.

                                                                                           Page 10
                      Foreign Account Tax Compliance Act: Improvements Are
                     Needed to Strengthen Systems Development Controls for the
                          Foreign Financial Institution Registration System



         Management Response: The IRS agreed with this recommendation and stated that
         the FATCA PMO will improve oversight of security requirements and associated testing
         by first identifying security testing gaps in the Lessons Learned Report. In addition, the
         FATCA PMO will ensure that developer testing activities are included in the FRS Drop 2
         schedule.

Testing Documentation Procedures Need Improvement
For successful systems development, it is important that test cases are created to test specific
conditions. IRS systems development guidelines are in place for developing and tracing
requirements to test cases.13 The documentation for these risk mitigation processes should
demonstrate that the requirements were adequately tested in order to validate that the FRS is
functioning as intended. In addition, each test case must utilize specific test data that are
developed or acquired to verify that all required conditions are met.
On May 14 and 15, 2013, during the SAT for the FRS, we found the SAT testers and the
Business Office Environment testers were inconsistently following testing procedures to
document their test cases.
        First observation: The SAT testers are required to document their test cases in a
         spreadsheet that includes the test script, the requirements being tested, the expected
         results, and the actual results. The Business Office Environment testers provided very
         limited test steps and had no documentation available for these steps. It is important that
         project-generated test artifacts or work products, such as test plans, test scripts, test cases,
         test reports, and measurements be recorded and maintained in an approved repository.
        Second observation: In one case, the SAT tester shared plans to create a new test case
         from an error in a script instead of failing the test case and retesting it. This condition
         highlighted a risk of the possibility of testers independently writing their own tests. To
         ensure the integrity of the testing process, the individual who writes the test case should
         not be the same person testing the case. Specifically, it is important that the test team14
         review and analyze the requirements, create test cases/scripts, execute the test cases, and
         document the results in an approved traceable repository. This risk mitigation control is


13
   Internal Revenue Manual (IRM) 2.110, Requirements Engineering, Requirements Engineering Process, (February
1, 2013) provides guidelines for developing requirements, while IRM 2.127, Software Testing Standards and
Procedures, (May 15, 2013) provides guidelines for tracing the requirements to the test cases and executing the test
cases. IRM 2.127.1.2 states that test cases are created to document specific conditions to be tested.
14
   IRM 2.127.2.1.5.3, IT Test Preparation Procedure, (May 15, 2013) provides the activity steps to verify the test
environment review documentation; prepare test cases, scripts, and data; and conduct a test readiness review. IRM
2.127.2.1.6.3, IT Test Execution Procedure, (May 15, 2013) provides the activity steps to execute test cases/scripts,
document results, and report the test status.


                                                                                                           Page 11
                   Foreign Account Tax Compliance Act: Improvements Are
                  Needed to Strengthen Systems Development Controls for the
                       Foreign Financial Institution Registration System



       not in place if testers are permitted to independently create and execute their own test
       cases during the testing process.
The IRS issued new testing procedures in May 2013 stating that:
       The objective is to have everyone using the same tools and techniques and follow
       the same repeatable steps so that the organization can quantify how well the
       procedure is working and train future staff members who may not currently know
       the routine. Ensuring consistency is a critical component for ensuring optimum
       efficiency.
The FRS testing conditions that we observed, however, reflect inconsistencies in testing
documentation procedures for the SAT testers and the Business Office Environment testers.
Further, the IRS acknowledged in a June 2013 Risk Detail Report for the FRS that Performance
Testing was scheduled to end June 7, 2013; however it has been delayed due to errors…in the
SAT environment. Based on our review, we concluded one or more of the errors identified
during the SAT testing may have been caused by a database programming error not detected by
the SAT testers.

Recommendations
Recommendation 4: The Chief Technology Officer should ensure that all testing groups
follow the recently established Internal Revenue Manual (IRM) procedures for documenting test
cases for consistency in testing requirements and in detecting and correcting errors to ensure that
the FRS meets all of its requirements as needed.
       Management Response: The IRS agreed with this recommendation and stated that
       testing groups will continue to follow the recently established IRM procedures for
       documenting test cases to maintain consistency in testing requirements and in detecting
       and correcting errors to ensure that FRS meets all of its requirements as needed.
Recommendation 5: The Commissioner, LB&I Division should establish IRM procedures
for all testing groups to ensure that documentation of test cases is consistent with and supports
the IT Organization requirements testing process.
       Management Response: The IRS agreed with this recommendation and stated that
       the LB&I Division will meet with IT Organization professionals with subject matter
       expertise to ensure that documentation of test cases is consistent with and supports the IT
       Organization’s requirements testing processes. Applicable IRMs will be modified as
       appropriate.




                                                                                            Page 12
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System



Requirements Management Controls Need Improvement
On April 4, 2013, the IRS informed us that there were a total of 1,409 requirements for the FRS
Release 1.1. The IRS subsequently provided us with the April 30, 2013, Requirements
Traceability Verification Matrix (RTVM) for Drop 1 which had 892 requirements listed. The
IRS explained the difference between the 1,409 requirements and the 892 requirements in the
April 30, 2013, RTVM were the requirements for Drop 2. Although we agree that the
April 30, 2013, RTVM was for Drop 1 SAT testing, that version of the RTVM still had
approximately 100 out-of-scope Drop 2 requirements listed.
We observed SAT testing in May 2013. We subsequently reviewed the test cases and found
requirements that could not be traced back to the April 30, 2013, RTVM. The IRS explained that
the RTVM was not brought up-to-date until during-and-after Drop 1 SAT testing was completed.
We concluded that the Enterprise Systems Testing team did not have an up-to-date RTVM in
place to ensure complete traceability between the FRS requirements and test cases. This process
is an important risk mitigation control for ensuring that all test cases are traced to specific
requirements. Otherwise, incomplete, missing, or invalid requirements could lead to an adverse
impact on the functionality of the FRS or jeopardize the successful implementation of future
FATCA systems.

Recommendation
Recommendation 6: The Chief Technology Officer should ensure that IRM guidelines are
followed so that the RTVM is established at the beginning of the testing life cycle and updated
and maintained throughout the requirements management and testing processes, and that the
RTVM is utilized on a regular basis to ensure that all FRS and future FATCA system
requirements are included in test cases and tested.
       Management Response: The IRS agreed with this recommendation and currently
       ensures that IRM guidelines are followed so that the RTVM is established at the
       beginning of the testing life cycle and updated and maintained throughout the
       requirements management and testing processes. In addition, the IRS makes certain that
       the RTVM is utilized on a regular basis to ensure that all FRS and future FATCA
       requirements are included in test cases and tested.
       Office of Audit Comment: While the Chief Technology Officer agreed with our
       recommendation that IRM guidelines should be followed, during our audit we observed
       that the RTVM had a significant number of requirements that were not in-scope for the
       SAT testing. Our concern is that, although the recent changes in IRS guidelines allow for
       updates to the RTVM throughout the requirements management and testing processes, at
       the outset of and during the test, the RTVM should contain specific requirements for the


                                                                                         Page 13
           Foreign Account Tax Compliance Act: Improvements Are
          Needed to Strengthen Systems Development Controls for the
               Foreign Financial Institution Registration System



test cases. We maintain that improved controls are needed to ensure that all requirements
trace to test cases.
In future reviews of systems development activities for the FATCA, we will continue to
consider the adequacy of the new IRM guidelines for RTVM development and
implementation. Also, the program-level RTVM should be maintained throughout the
requirements management and testing processes to ensure complete functionality of the
FRS and long-term successful implementation of the FATCA Program. We believe that
the IRS’s corrective action as provided is non-responsive to our recommendation because
it does not address the need for appropriate, in-scope requirements to be established and
documented in the RTVM at the beginning of the testing life cycle.




                                                                                 Page 14
                         Foreign Account Tax Compliance Act: Improvements Are
                        Needed to Strengthen Systems Development Controls for the
                             Foreign Financial Institution Registration System



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS’s systems development approach for the
FRS is sufficiently mitigating risks with the application of information technology management
controls for successful development and delivery of requirements and capabilities aimed at
FATCA milestones and goals. To accomplish our objective, we:
I.         Determined whether key systems development controls were in place within the IRS’s
           Enterprise Life Cycle Iterative Path1 methodology for the FRS in accordance with
           Department of the Treasury, Office of Management and Budget, the IRM, and other
           applicable guidance.
           A. Determined whether FRS risks were properly identified, monitored, and mitigated in
              accordance with applicable guidance.
                1. Judgmentally2 selected eight of 21 risks with a Risk Identification Date from
                   March 1, 2012, up to the May 23, 2013, FATCA Risk Detail Report. The sample
                   of eight risks: a) had a status of Red; b) did not have a status of Withdrawn; and
                   c) were inside the scope of FATCA Release 1.1, Drop 1.
                2. Re-performed the risk analysis on the judgmentally selected sample from
                   Step I.A.1. to determine whether we agree with the IRS’s conclusion for each
                   risk.
           B. Determined whether the IRS is adequately managing the requirements and change
              management risks and system testing activities for the FRS to effectively address the
              requirements of the FATCA legislation in accordance with applicable guidance.
II.        Considered whether the IRS was effectively estimating and tracking budgeted and actual
           costs, performance goals, and key milestones for the FRS in accordance with Department
           of the Treasury, Office of Management and Budget, IRM, and other applicable financial
           management guidance.
           A. Identified the FRS’s budget and planned life cycle costs and determined whether
              controls were in place to effectively manage these costs.



1
    See Appendix V for a glossary of terms.
2
    A judgmental sample is a non-statistical sample, the results of which cannot be used to project to the population.


                                                                                                               Page 15
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System



       B. Identified the FRS’s actual life cycle costs and determined if they are being
          effectively managed.
III.   Determined whether required systems security controls have been sufficiently planned
       and addressed in the design of the FRS and whether systems security testing activities are
       adequate for ensuring the protection of FFIs’ Personally Identifiable Information and
       other sensitive data in accordance with Department of the Treasury, Office of
       Management and Budget, IRM, and National Institute of Standards and Technology
       guidance, as well as other applicable guidance.
       A. Determined if required security controls are designed into the FRS.
       B. Determined if Personally Identifiable Information is part of the FRS.
       C. Determined if fraud detection controls are being designed into the FRS.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRM and related IRS guidelines and the
processes followed in the development of information technology projects. We evaluated these
controls by conducting interviews with management and staff, observing testing activities, and
reviewing documentation. Documents reviewed include the FATCA Project Management Plan,
the FATCA Program Configuration Management Plan, and other documents that provided
evidence of whether the IRS is adequately managing systems development risks for the FATCA
Project.




                                                                                          Page 16
                 Foreign Account Tax Compliance Act: Improvements Are
                Needed to Strengthen Systems Development Controls for the
                     Foreign Financial Institution Registration System



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwendolyn McGowan, Director, Systems Modernization and Applications Development
Suzanne Westcott, Audit Manager
Mark Carder, Lead Auditor
Cindy Harris, Senior Auditor
Lynn Ross, Senior Auditor




                                                                                     Page 17
                 Foreign Account Tax Compliance Act: Improvements Are
                Needed to Strengthen Systems Development Controls for the
                     Foreign Financial Institution Registration System



                                                                       Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner (International) Executive Assistant SE:LB:IN
Deputy Chief Information Officer for Operations OS:CTO
Director, Privacy, Governmental Liaison and Disclosure OS:P
Associate CIO, Applications Development OS:CTO:AD
Associate CIO, Cybersecurity OS:CTO:C
Director, Risk Management Division OS:CTO:SP:RM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 18
                        Foreign Account Tax Compliance Act: Improvements Are
                       Needed to Strengthen Systems Development Controls for the
                            Foreign Financial Institution Registration System



                                                                                                                   Appendix IV

                                            Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       Inefficient Use of Resources – Potential; $2.2 million (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS had spent $8.6 million over 19 months to develop FRS Release 1.0 before the effort was
terminated. The IRS informed us that they were able to include most of the functionality
developed for Release 1.0 with its development of Release 1.1. The IRS originally estimated
$14.4 million to develop and deploy the FRS. However, the current cost estimate to deploy the
system with Release 1.1 is $8.0 million. This $8.0 million estimate is in addition to the $8.6
million already spent on Release 1.0 for an estimated cost of $16.6 million for the FRS. Based
on current estimated costs for Release 1.1 ($16.6 million) compared to the estimated cost for
Release 1.0 ($14.4 million), we identified the potential inefficient use of resources to be
$2.2 million.
   Total .....................................................................................................................$2.2 million




                                                                                                                                 Page 19
                Foreign Account Tax Compliance Act: Improvements Are
               Needed to Strengthen Systems Development Controls for the
                    Foreign Financial Institution Registration System



                                                                             Appendix V

                          Glossary of Terms

Term                  Definition
Enterprise            The IRM 2.15.1.1.2 defines an Enterprise Architecture as a strategic
Architecture          information asset base which defines the mission, the information
                      and technologies necessary to perform the mission, and the
                      transitional processes for implementing new technologies in
                      response to the changing needs of the mission. The Enterprise
                      Architecture will:
                            Capture the current state of the IRS Enterprise in an As-Built
                             Architecture.
                            Define the desired future state of the IRS Enterprise in a
                             Target Architecture.
                            Define a plan for getting from the current state to the desired
                             future state in a Transition Strategy and Release
                             Architecture.
                      The IT Organization also posted on its website that the Enterprise
                      Architecture is defined as the process of translating business vision
                      and strategy into effective enterprise change by creating,
                      communicating, and improving the key requirements, principles,
                      and models that describe the enterprise’s future state and enable its
                      evolution. The IRS Enterprise Architecture is a tool used by
                      business and IT managers to plan and manage their investments in
                      business and technology solutions.
Intergovernmental     The U.S. Department of the Treasury agreement with foreign
Agreement             countries to implement the information reporting and withholding
                      tax provisions of the FATCA via an automatic exchange of
                      information.




                                                                                     Page 20
                  Foreign Account Tax Compliance Act: Improvements Are
                 Needed to Strengthen Systems Development Controls for the
                      Foreign Financial Institution Registration System



Term                      Definition

Iterative Path            An adaptive development approach in which projects start with
                          initial planning and end with deployment, with repeated cycles of
                          requirement discovery, development, and testing in between. It is a
                          more flexible and adaptable process than traditional sequential
                          development approaches
Large Business and        Serves corporations, subchapter S corporations, and partnerships
International Division    with assets greater than $10 million. These entities typically have
                          large numbers of employees, deal with complicated issues involving
                          tax law and accounting principles, and conduct their operations in
                          an expanding global environment. 
Personally Identifiable   Information that, either alone or in combination with other
Information               information, can be used to uniquely identify an individual. Some
                          examples of Personally Identifiable Information are: name, Social
                          Security Number, date of birth, place of birth, address, and
                          biometric record. 
Requirement               A formalization of a need; it is the statement of a capability or
                          condition that a system, subsystem, or system component must have
                          or meet to satisfy a contract, standard, or specification. 
Requirements              A tool that documents requirements and establishes the traceability
Traceability              relationships between the requirements to be tested and their
Verification Matrix       associated test cases and test results. 
SA-10 Developers          Information system developers implement a configuration
Configuration Testing     management process that manages and controls changes to the
                          system, implements only IRS-approved changes, documents all
                          approved changes, and tracks security flaws. 
SA-11 Developers          Addresses confidentiality, integrity, and availability of the software;
Security Testing          data processed by the system; and resolution of issues that could
                          result in security vulnerabilities. 
Security Controls         Security Controls Assessment is conducted in the IRS production
Assessment Security       environment and consists of activities designed to ensure that the
Test Plan                 system’s security safeguards are in place and functioning as
                          intended. 
System Acceptability      Verifies that the system satisfies software application requirements. 
Test

                                                                                          Page 21
               Foreign Account Tax Compliance Act: Improvements Are
              Needed to Strengthen Systems Development Controls for the
                   Foreign Financial Institution Registration System



Term                 Definition

Withholding Agent    A U.S. or foreign person who has control, receipt, custody, disposal,
                     or payment of any item of income of a foreign person that is subject
                     to withholding. A withholding agent may be an individual,
                     corporation, partnership, trust, association, or any other entity,
                     including any foreign intermediary, foreign partnership, or U.S.
                     branch of certain foreign banks and insurance companies. 




                                                                                   Page 22
     Foreign Account Tax Compliance Act: Improvements Are
    Needed to Strengthen Systems Development Controls for the
         Foreign Financial Institution Registration System



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 23
 Foreign Account Tax Compliance Act: Improvements Are
Needed to Strengthen Systems Development Controls for the
     Foreign Financial Institution Registration System




                                                     Page 24
 Foreign Account Tax Compliance Act: Improvements Are
Needed to Strengthen Systems Development Controls for the
     Foreign Financial Institution Registration System




                                                     Page 25
 Foreign Account Tax Compliance Act: Improvements Are
Needed to Strengthen Systems Development Controls for the
     Foreign Financial Institution Registration System




                                                     Page 26
 Foreign Account Tax Compliance Act: Improvements Are
Needed to Strengthen Systems Development Controls for the
     Foreign Financial Institution Registration System




                                                     Page 27
